No. 19-767
In the Supreme Court of the United
__________________

States

NATIONAL ASSOCIATION FOR GUN RIGHTS, INC.,
Petitioner,
v.
JEFF MANGAN, IN HIS OFFICIAL CAPACITY AS THE
COMMISSIONER OF POLITICAL PRACTICES FOR THE
STATE OF MONTANA, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

__________________

BRIEF IN OPPOSITION
__________________
TIMOTHY C. FOX
Montana Attorney General
MATTHEW T. COCHENOUR
Acting Solicitor General
Counsel of Record
J. STUART SEGREST
Chief, Civil Bureau
HANNAH E. TOKERUD
Assistant Attorney General
MONTANA DEPARTMENT OF JUSTICE
215 N. Sanders St.
Helena, MT 59601
(406) 444-2026
mcochenour2@mt.gov
Counsel for Respondents
April 27, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
In Citizens United v. Federal Election Comm’n, 558
U.S. 310, 369 (2010), this Court rejected the contention
that “disclosure requirements must be limited to
speech that is the functional equivalent of express
advocacy.” Instead, the Court applied “exacting
scrutiny” to review the constitutionality of the
disclaimers and disclosures required for “electioneering
communications” under the Bipartisan Campaign
Reform Act of 2002. Id. at 366-68. Since Citizens
United, the courts of appeal have uniformly applied
exacting scrutiny to state disclosure provisions. The
court below applied exacting scrutiny and upheld
Montana’s “electioneering communications” statute,
determining that the statute is substantially related to
the State’s interests in transparency, informing voters
about who is behind the messages vying for their
attention, and decreasing circumvention of campaign
finance laws.
The question presented is:
Did the Ninth Circuit err when, applying exacting
scrutiny, it upheld Montana’s electioneering
communication statute?

ii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
I.

Montana’s “Electioneering Communication”
Statute, and the Different Disclosure
Requirements for Incidental Committees and
Independent Committees . . . . . . . . . . . . . . . . 4

II.

Petitioner’s Challenge to Montana’s
Electioneering Communication Statute . . . . 11

REASONS FOR DENYING THE PETITION. . . . . 18
I.

This Case Is A Poor Vehicle for Addressing
the Issues Raised in the Petition . . . . . . . . . 18

II.

There Is No Circuit Split Because Lower
Courts Agree on the Standard of Review for
Disclosure Laws like Montana’s and No
Circuit Has Adopted NAGR’s Proposed
Bright-Line Major-Purpose Rule . . . . . . . . . 21

III.

The Ninth Circuit Correctly Applied Exacting
Scrutiny . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
A. Montana’s Disclosure Provision Meets
Exacting Scrutiny. . . . . . . . . . . . . . . . . . . 31
B. Montana’s Disclosure Provision Is
Narrower than NAGR Represents . . . . . 34

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

iii
TABLE OF AUTHORITIES
CASES
Buckley v. Valeo,
424 U.S. 1 (1976). . . . . . . . . . . . . . . . . . . . . passim
Canyon Ferry Road Baptist Church of East
Helena, Inc. v. Unsworth,
556 F.3d 1021 (9th Cir. 2009). . . . . . . . . . . . 10, 27
Center for Individual Freedom v. Madigan,
697 F.3d 464 (7th Cir. 2012). . . . . . . . . . 24, 25, 26
Christian Legal Soc’y Chapter of the Univ.
of Cal. v. Martinez, 561 U.S. 661 (2010) . . . . . . 19
Citizens United v. Federal Election Comm’n,
558 U.S. 310 (2010). . . . . . . . . . . . . . . . . . . passim
Doe v. Reed,
561 U.S. 186 (2010). . . . . . . . . . . . . . . . . . . . 21, 22
Human Life of Washington Inc. v. Brumsickle,
624 F.3d 990 (9th Cir. 2010). . . . . . . . . . 13, 21, 29
Iowa Right to Life Comm., Inc. v. Tooker,
717 F.3d 576 (8th Cir. 2013). . . . . . . . . . . . . . . . 22
Jennings v. Rodriguez,
138 S. Ct. 830 (2018). . . . . . . . . . . . . . . . . . . 19, 20
Justice v. Hosemann,
771 F.3d 285 (5th Cir. 2014). . . . . . . . . . . . . . . . 22
Lair v. Motl,
873 F.3d 1170 (9th Cir. 2017), cert. denied,
139 S. Ct. 916 (Jan. 14, 2019). . . . . . . . . . . . . . . . 6

iv
McConnell v. Federal Election Comm’n,
540 U.S. 93 (2003). . . . . . . . . . . . . . . . . . 17, 22, 32
Minnesota Citizens Concerned for Life, Inc. v.
Swanson, 692 F.3d 864 (8th Cir. 2012) . . . . . . . 22
Montanans for Community Development v.
Mangan,
735 F. App’x 280 (9th Cir. 2018) . . . . . . . 2, 10, 27
Montanans for Community Development v.
Mangan, 139 S. Ct. 1165 (2019) . . . . . . . . . . . . . . 2
N.M. Youth Organized v. Herrera,
611 F.3d 669 (10th Cir. 2010). . . . . . . . . . . . 22, 26
National Ass’n for Gun Rights v. Murry,
969 F. Supp. 2d 1262 (D. Mont. 2013)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9, 10, 11, 27
National Ass’n for Gun Rights, Inc. v. Motl,
188 F. Supp. 3d (D. Mont. 2016) . . . . . . . . . 11, 27
National Organization for Marriage v. McKee,
649 F.3d 34 (1st Cir. 2011) . . . . . . . . . . . 22, 28, 29
Nixon v. Shrink Missouri Government PAC,
528 U.S. 377 (2000). . . . . . . . . . . . . . . . . . . . . . . 32
North Carolina Right to Life, Inc. v. Leake,
525 F.3d 274 (4th Cir. 2008). . . . . . . . . . . . . 23, 26
Real Truth About Abortion, Inc. v. Federal
Election Comm’n,
681 F.3d 544 (4th Cir. 2012). . . . . . . . . . . . . 22, 23
Renton v. Playtime Theatres, Inc.,
475 U.S. 41 (1986). . . . . . . . . . . . . . . . . . . . . . . . 33

v
SpeechNow.org v. Federal Election Comm’n,
599 F.3d 686 (D.C. Cir. 2010) . . . . . . . . . . . . . . . 22
Utter v. Building Industry Ass’n of Washington,
341 P.3d 953 (Wash. 2015) . . . . . . . . . . . . . . 28, 29
Vermont Right to Life Comm., Inc. v. Sorrell,
758 F.3d 118 (2d Cir. 2014) . . . . . . . . . . . . . 22, 28
Wisconsin Right to Life, Inc. v. Barland,
751 F.3d 804 (7th Cir. 2014). . . . . . . . . . . . passim
Worley v. Cruz-Bustillo,
717 F.3d 1238 (11th Cir. 2013). . . . . . . . . . . . . . 22
STATUTES
52 U.S.C. § 30104(c)(1). . . . . . . . . . . . . . . . . . . . . . . . 6
52 U.S.C. § 30104(f) . . . . . . . . . . . . . . . . . . . . . . . . . . 6
52 U.S.C. § 30104(f)(3)(C) . . . . . . . . . . . . . . . . . . . . . 6
Mont. Code Ann. § 13-1-101(16) . . . . . . . . . . . . . 4, 27
Mont. Code Ann. § 13-1-101(16)(a) . . . . . . . . . . . 5, 35
Mont. Code Ann. § 13-1-101(16)(b) . . . . . . . . . . . . . . 5
Mont. Code Ann. § 13-1-101(23) . . . . . . . . . . . . . . . . 8
Mont. Code Ann. § 13-1-101(24) . . . . . . . . . . . . . . . . 7
Mont. Code Ann. § 13-1-101(31) . . . . . . . . . . . . . . . . 7
Mont. Code Ann. § 13-1-101(31)(b) . . . . . . . . . . . . . . 7
Mont. Code Ann. § 13-1-101(31)(d) . . . . . . . . . . . . . . 4
Mont. Code Ann. § 13-35-103. . . . . . . . . . . . . . . . . . 10

vi
Mont. Code Ann. § 13-35-128. . . . . . . . . . . . . . . . . . 10
Mont. Code Ann. § 13-37-229. . . . . . . . . . . . . . . . . . . 9
Mont. Code Ann. § 13-37-232. . . . . . . . . . . . . . . . . . . 9
Mont. Code Ann. § 13-37-232(1) . . . . . . . . . . . . . . . 10
Mont. Code Ann. § 13-37-232(4) . . . . . . . . . . . . . . . 10
RULES
Mont. Admin. R. 44.11.605(3) . . . . . . . . . . . . . . . . . . 5
Mont. Admin. R. 44.11.605(3)(a) . . . . . . . . . . . . . . . 35
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
OTHER AUTHORITIES
FEC Form 9 for Electioneering Communications,
available at: https://www.fec.gov/resources/cmscontent/documents/fecfrm9.pdf . . . . . . . . . . . 9, 20
https://www.ncsl.org/research/about-statelegislatures/2010-constituents-per-statelegislative-district.aspx . . . . . . . . . . . . . . . . . . . . 6

1
INTRODUCTION
This case involves a challenge to the State of
Montana’s electioneering communication disclosure
law. This law requires groups that publicly distribute
political mailers mentioning a clearly identified
candidate shortly before an election to disclose basic
information about who they are and their spending so
that voters can make informed decisions in state
elections. Petitioner National Association for Gun
Rights, Inc. (NAGR) argues that the Ninth Circuit
erred in failing to apply the “major-purpose test” from
Buckley v. Valeo, 424 U.S. 1 (1976), which NAGR
alleges prevents a state from requiring groups to
register and report ongoing campaign spending unless
a majority of the group’s spending is on political
advocacy. According to NAGR, a “deep split” exists
among the courts of appeal on how to apply the test.
Whatever relevance a group’s major purpose may
have to disclosure laws, this is not the case to decide it
because NAGR did not raise the issue below, and thus
waived it. NAGR’s failure to raise the major-purpose
argument is evident not only from its briefing and oral
argument to the Ninth Circuit, but also by the fact that
the court of appeals’ decision does not mention the
major-purpose test—neither addressing it, adopting it,
nor rejecting it.
In addition to waiving its major-purpose argument,
NAGR expressly conceded that disclosure provisions
can constitutionally apply to issue advocacy, and it
abandoned its challenge to disclosure requirements,
informing the Ninth Circuit that the propriety of
disclosure in this context was a “settled matter.”

2
Having made this concession in the court of appeals,
Petitioner cannot now ask this Court to take up the
issue.
This Court recently denied certiorari to consider the
same challenge to the same state law in a case where
the petitioners argued that the court below should have
applied the major-purpose test. Montanans for
Community Development v. Mangan, 139 S. Ct. 1165
(2019). In that case, however, the petitioners
consistently advanced the major-purpose argument in
the federal courts, and the Ninth Circuit considered
and rejected it. See Montanans for Community
Development v. Mangan, 735 F. App’x 280, 284-85 (9th
Cir. 2018). If certiorari was not warranted in
Montanans for Community Development, even though
that case had none of the vehicle problems presented
by this case, it is certainly not warranted here.
Moreover, NAGR’s claimed circuit split is
manufactured because there is no dispute on the
standard of review to apply to disclosure laws. Every
circuit court to address the question, including the
Ninth Circuit, has applied exacting scrutiny to laws
requiring disclosure in the electoral context—the
standard that this Court has repeatedly affirmed, most
recently in Citizens United. Nevertheless, NAGR
claims that the Ninth Circuit erred by not applying the
major-purpose test (without being asked to do so).
No circuit court has adopted NAGR’s view. And
those that have found a group’s major purpose relevant
only considered it a non-dispositive factor; the cases
were ultimately resolved on whether the statute met
exacting scrutiny. Even then, the major-purpose test

3
became a factor only when a state subjected groups
whose major purpose was not political advocacy to the
same extensive regulations as full-fledged Political
Action Committees (PACs).
Montana’s regulations for major-purpose and nonmajor-purpose groups differ substantially. Majorpurpose groups are regulated similarly to federal PACs,
while non-major-purpose groups like NAGR are subject
to what the Ninth Circuit and the Montana federal
district court have repeatedly found to be minimal
burdens. So even in those circuits where the majorpurpose test may be a factor, it would not be in this
case.
The Ninth Circuit correctly determined that the
State of Montana’s minimal requirements for groups
like NAGR are substantially related to the State’s
interest in deterring corruption, enforcing the State’s
election laws, and informing voters about who supports
and opposes candidates for election. That decision, too,
is consistent with this Court’s precedent and decisions
from other circuits.
The Court should deny the petition.

4
STATEMENT OF THE CASE
I.

Montana’s “Electioneering Communication”
Statute, and the Different Disclosure
Requirements for Incidental Committees
and Independent Committees.

Like all citizens, Montanans have a legitimate
“interest in knowing who is speaking about a candidate
shortly before an election.” Citizens United, 558 U.S. at
369. This interest extends not only to express advocacy
that supports or opposes a candidate, but to issue
advocacy and even commercial advertisements that
mention candidates shortly before an election. Id.
1. Montana, like other states and the federal
government, has disclosure laws aimed at furthering
the State’s legitimate interests in providing the
electorate information about groups that spend money
on election-related advocacy. Before 2015, Montana did
not require disclosure for election-related advocacy
communications that fell short of express advocacy but
that mentioned clearly identified candidates in the
runup to an election. The 2015 Montana Legislature
closed this loophole. As Republican Senator Duane
Ankey, the primary sponsor of the bill, put it: “Things
that look like you are trying to influence an election,
when done right before an election, have to be disclosed
too.” Supp. Excerpts of Record (SER) 5, ECF No. 34 1835010. The disclosure provision requires groups that
spend more than $250 on an “electioneering
communication” shortly before an election to provide
information about themselves and their spending so
that voters can make informed decisions in state
elections. See Mont. Code Ann. § 13-1-101(16), (31)(d).

5
Under Montana law, an electioneering
communication is a “paid communication that is
publicly distributed by radio, television, cable, satellite,
internet website, newspaper, periodical, billboard,
mail, or any other distribution of printed materials,
that is made within 60 days of the initiation of voting
in an election, that does not support or oppose a
candidate or ballot issue, that can be received by more
than 100 recipients in the district voting on the
candidate or ballot issue, and that” refers to or depicts
a clearly identified candidate or ballot issue in the
election. Mont. Code Ann. § 13-1-101(16)(a). An
electioneering communication does not include news
stories, communications from a group to its members,
commercial communications relating to a candidate’s
capacity as a business owner or employee, or
communications related to a candidate debate or
forum. Mont. Code Ann. § 13-1-101(16)(b). Further, to
avoid reaching speech that is clearly not related to
elections, communications that reference candidates or
parties but are “susceptible to no reasonable
interpretation other than as unrelated to the candidacy
or the election” are not reportable electioneering
communications. Mont. Admin. R. 44.11.605(3).
Montana’s electioneering communication statute is
modeled off the federal electioneering communication
statute, with some state-specific distinctions based on
differences between state and federal elections. For
example, reporting requirements are triggered at $250
for a single expenditure, rather than $10,000 of

6
combined expenditures. See 52 U.S.C. § 30104(f).1 This
difference simply reflects that the amount of money
spent in state elections is generally far lower than that
spent in federal races. As courts have noted, Montana
is “one of the least expensive states in the nation in
which to run a political campaign.” Lair v. Motl, 873
F.3d 1170 (9th Cir. 2017) (citation omitted), cert.
denied, 139 S. Ct. 916 (Jan. 14, 2019). For example,
Lair recognized that the average amount raised for a
legislative race in Montana was around $8,200, 873
F.3d at 1182-83, which is far lower than the hundreds
of thousands, if not millions, of dollars raised in
analogous federal races.
Another difference between Montana and the
federal system is that groups must report
electioneering communications that can reach 100
recipients in the relevant voting districts, rather than
50,000 recipients. See 52 U.S.C. § 30104(f)(3)(C). Again,
this reflects a distinction between state and federal
races. While the relevant audience in a federal
congressional race in Montana is the entire State of
more than a million people, the relevant audience
concerning a state house seat is only 9,894 people; the
relevant audience for a state senate seat is 19,788.2 The
difference in the number of recipients follows from the
differences in state and federal elections themselves.

1

Notably, federal law requires persons who make aggregate
independent expenditures in excess of $250 to file a statement with
the Federal Election Commission. 52 U.S.C. § 30104(c)(1).

2

See https://www.ncsl.org/research/about-state-legislatures/2010constituents-per-state-legislative-district.aspx.

7
2. By statute, a group that spends more than $250
on a single electioneering communication shortly before
an election or on express advocacy is considered a
“political committee.” Montana law defines a “political
committee” as a “combination of two or more
individuals” or groups like corporations, partnerships,
or associations that receive contributions or make
expenditures to engage in express advocacy or its
functional equivalent to support or oppose candidates
or to make electioneering communications. Mont. Code
Ann. § 13-1-101(31). A group is not considered a
political committee, however, unless it spends more
than $250 on a single qualifying communication. Id.
Because not all political committees engage in the
same level or type of election-related advocacy,
Montana law recognizes four distinct types of political
committees: independent committees, ballot issue
committees, political party committees, and incidental
committees. Mont. Code Ann. § 13-1-101(31)(b).
Independent committees and incidental committees are
the primary sources of independent expenditures in
Montana elections and are the only committees
relevant in this case.
Independent committees are committees whose
primary existence and focus is on ongoing election
advocacy. Mont. Code Ann. § 13-1-101(24). They are the
Montana committees most analogous to PACs under
the federal system. An independent committee’s
primary purpose is to receive contributions and make
expenditures in elections to support or oppose
candidates or ballot issues. Mont. Code Ann.
§ 13-1-101(24). An incidental committee, on the other

8
hand, is not specifically organized or maintained for
the primary purpose of supporting or opposing
candidates. However, it may become a committee in an
election by receiving contributions to support or oppose
candidates or by making an expenditure on express
advocacy or an electioneering communication. Mont.
Code Ann. § 13-1-101(23).
All political committees file a statement of
organization with the Montana Commissioner of
Political Practices (Commissioner) by filling out a short
fill-in-the-blank C-2 form listing the committee’s name
and address, the treasurer/contact person, a bank
name and address,3 a brief description of the
committee, and the candidate names identified by
expenditure. The statement takes less than ten
minutes to complete. See Pet. App. 55; see also National
Ass’n for Gun Rights v. Murry (NAGR I), 969 F. Supp.
2d 1262, 1265 (D. Mont. 2013).
Political committees in Montana are subject to
different reporting and disclosure obligations based on
their level of election-related advocacy. Petitioner’s
implication that “any group that makes more than
$250 of ‘expenditures’” is subject to the same PAC-like
disclosure requirements, Pet. 8, is demonstrably
incorrect as determined by every court to have
considered the issue. Rather, instead of using a onesize-fits-all disclosure system, Montana employs a

3

NAGR misrepresents that a committee must “establish a separate
bank account.” Pet. 9 (emphasis added). Rather, a committee may
designate its current bank if it is authorized to conduct business
in Montana, as all national banks are.

9
sliding-scale approach, with disclosure requirements
increasing as political activity increases. See NAGR I,
969 F. Supp. 2d at 1267-68 (comparing the different
reporting requirements for independent and incidental
committees). Independent committees have the most
reporting and disclosure obligations, while incidental
committees have the least. Compare Mont. Code Ann.
§ 13-37-229 with Mont. Code Ann. § 13-37-232.4
Independent committees file their disclosures with
the Commissioner on a ten-page C-6 form, on which
they report, among other things: beginning and ending
cash balances; receipts, including information such as
the contributor’s name, address, occupation and
employer, and the date of contribution; and
expenditures, including information such as the
recipient’s name, address, occupation and place of
business, the date of expenditure, and a brief
description of the purpose of the expenditure. See
Mont. Code Ann. § 13-37-229; NAGR I, 969 F. Supp. 2d
at 1267-68. Because independent committees are
ongoing, they file reports in off-election years and file
updated C-2 forms each election cycle.
By contrast, incidental committees that make
contributions or expenditures report on a three-page
C-4 form. See NAGR I, 969 F. Supp. 2d at 1267-68.
Unlike independent committees, incidental committees
4

While independent committees are similar to PACs in the federal
system, an incidental committee’s disclosure requirements are
more akin to those required for federal electioneering
communications. See FEC Form 9 for Electioneering
Communications, available at: https://www.fec.gov/resources/cmscontent/documents/fecfrm9.pdf.

10
do not report contributions unless the contribution is
specifically earmarked for a specified candidate or
ballot issue or unless the incidental committee
requested the contribution to support its election
advocacy. Mont. Code Ann. § 13-37-232(1), (4). Failure
to comply with registration and reporting requirements
may result in civil penalties, but not criminal penalties.
Mont. Code Ann. §§ 13-35-103, 13-37-128.
Petitioner’s assertion that Montana requires
“multiple reports, even if the group makes only one
‘electioneering communication’ during the relevant
election period” is also incorrect. Pet. 7. To the
contrary, an incidental committee that makes a single
expenditure can satisfy all registration and reporting
obligations in a single filing. See Pet. App. 56 (“An
incidental committee that makes a single expenditure
may open and close within the same reporting period,
and may satisfy its reporting requirements through one
combined C-2 and C-4 [filing.]”). Incidental committees
usually do not file ongoing reports because they do not
engage in political advocacy post-election. See NAGR I,
969 F. Supp. 2d at 1268.
As such, federal courts have repeatedly found that
Montana’s disclosure requirements on incidental
committees are minimal. See Pet. App. 32; Montanans
for Community Development, 735 F. App’x at 284
(disclosure requirements “not overly burdensome”);
Canyon Ferry Road Baptist Church of East Helena, Inc.
v. Unsworth, 556 F.3d 1021, 1034 (9th Cir. 2009)
(observing that reporting burdens were “not
exceedingly onerous”); NAGR I, 969 F. Supp. 2d at
1267 (requirements on incidental committees are

11
“minimal and straightforward”); National Ass’n for
Gun Rights, Inc. v. Motl, 188 F. Supp. 3d 1021, 1033
(D. Mont. 2016) (quoting NAGR I, 969 F. Supp. 2d at
1270) (public’s informational interest outweighs the
“minimal burden” of incidental committee disclosure
requirements).
II.

Petitioner’s Challenge to Montana’s
Electioneering Communication Statute.

1. NAGR wanted to circulate political
advertisements that mentioned candidates in the 60
days preceding elections during the 2018 election cycle;
specifically, it wanted to send mailers “to inform
Montanans of the positions and voting records of public
officials and candidates regarding the Second
Amendment.” Pet. App. 51 n.3 (citation omitted).
NAGR asserted that many public officials “inaccurately
claim to strongly support the rights of citizens to keep
and bear arms as well as to engage in lawful selfdefense,” and that “NAGR seeks to inform the public of
the identities of these officials, as well as provide the
public with information about these officials’ voting
records.” Excerpts of Record (ER) 32, ECF No. 23 1835010. NAGR stated that the mailers it sought to send
shortly before the election would contain “the positions
and voting records of public officials and candidates
regarding the Second Amendment.” Pet. App. 51.
NAGR asserted, however, that it would not send these
political mailers if it had to comply with Montana’s
disclosure requirements. Id. n.3.
NAGR sued the Commissioner, challenging
Montana’s electioneering communication statute as
overbroad because it required issue-advocacy groups to

12
register as political committees and comply with
disclosure regulations if their advocacy included a
candidate’s name. ER 28.5 NAGR alleged that
Montana’s electioneering communication statute was
overbroad because it reached issue advocacy. ER 39.
NAGR did not allege that the statute was
unconstitutional because it was not limited to groups
with the major purpose of nominating or electing
candidates. ER 39. Rather, NAGR’s claim was that the
State simply cannot regulate any issue advocacy—full
stop. ER 38-39.
Both Montana and NAGR moved for summary
judgment. NAGR did not present a major-purpose
argument to the district court. Rather, NAGR again
claimed that Montana’s electioneering communication
statute was overbroad because it reached issue
advocacy, which NAGR asserted was “outside of the
government’s power to regulate.” SER 27; Pet. App. 5253. NAGR’s position continued to be that “disclosure
requirements are only appropriate for groups that
engage in express advocacy.” Pet. App. 53.
2. The district court issued a decision granting
NAGR’s motion in part and granting Montana’s motion
in part. Pet. App. 42. Regarding NAGR’s challenge to
Montana’s electioneering communication provision, the
court rejected NAGR’s position that Montana could
impose disclosure requirements only on groups that
engage in express advocacy. The court observed that
both this Court and the Ninth Circuit, following

5

NAGR’s complaint raised two other challenges that are not
relevant to its Petition.

13
Citizens United, had rejected the notion that disclosure
must be limited to only express advocacy. Pet. App. 53.
Rather than applying an artificial bright-line rule, the
court applied exacting scrutiny to NAGR’s challenge to
the electioneering communication statute, which
NAGR conceded was the appropriate test for
determining whether the statute was constitutional.
Pet. App. 54.
Under exacting scrutiny, the court determined that
the challenged law was “‘substantially related to a
sufficiently important governmental interest.’” Pet.
App. 54 (quoting Human Life of Washington Inc. v.
Brumsickle, 624 F.3d 990, 1016 (9th Cir. 2010)). The
district court determined that Montana’s disclosure
laws serve “important, if not compelling, government
interests,” including increasing transparency,
informing Montanans about who was behind the
messages competing for their attention, and preventing
circumvention. Pet. App. 54. The court observed that
this Court had already recognized the importance of
these interests. Id. (citing Citizens United, 558 U.S. at
369).
In upholding the disclosure law, the court
recognized that Montana does not impose one-size-fitsall disclosure requirements on election spending;
rather, the disclosure obligations “are tailored to the
degree of an organization’s political activity and the
timing of its communications.” Pet. App. 55. The court
rejected NAGR’s attempt to analogize Montana’s laws
to those held unconstitutional by the Seventh Circuit in
Wisconsin Right to Life, Inc. v. Barland, 751 F.3d 804
(7th Cir. 2014). Whereas the disclosure laws in

14
Barland “indiscriminately imposed full-blown PAC
duties and required complicated and detailed reporting
requirements,” Montana’s were “straightforward,”
imposed “minimal burdens,” and were tailored to a
group’s political activities. Pet. App. 52 n.4 (internal
quotation marks and citations omitted).
Observing that NAGR would likely be considered an
incidental committee, the court rejected the argument
that disclosure requirements were too burdensome and
determined that “registering as an incidental
committee imposes a minimal burden.” Pet. App. 55.
The court noted that the statement of organization
form was available online and that it would take NAGR
less than ten minutes to provide the basic information,
including the treasurer/contact name, its committee
type and purpose, a list of the names of candidates by
expenditure, and the name and address of its bank. Id.
As for reporting, the court noted that, if NAGR sought
to make only a single expenditure, it could accomplish
all the reporting requirements in a single filing. Pet.
App. 56.
The court further noted the limited reach of the
disclosure requirements, citing the numerous statutory
exceptions, the spending threshold, the recipient
requirement, and the temporal requirement that
communications must occur during the “months just
before an election” to be reportable. Pet. App. 56-57.
The court concluded that “any burdens imposed by
distributing electioneering communications before an
election are minimal and outweighed by the public’s
interest in transparency and disclosure of the

15
individuals or groups vying for their attention.” Id. at
57.
3. On appeal, NAGR abandoned any challenge to
Montana’s disclosure requirements. Indeed, at oral
argument, Judge Berzon specifically questioned NAGR
on disclosure: “Can I just clarify that you’re not
complaining about the disclosure requirements?” Video
of Oral Argument at 2:10, NAGR v. Mangan, 933 F.3d
1102 (March 5, 2019) (“Oral Argument”).6 NAGR’s
counsel conceded that it was not challenging disclosure
and that disclosure requirements were a “settled
matter” under Citizens United and other cases based on
the government’s interest in “finding out who’s funding
particular speech.” Id. at 2:10-2:30.
NAGR also turned its back on its district court
arguments and conceded that a State could “require
disclosure” on issue advocacy and that Montana’s
reporting requirements were minimal; but, it argued,
a State could not require “full blown PAC-like reporting
obligations” on an issue-advocacy group. Oral
Argument at 2:30-2:50, 4:05. NAGR did not present a
major-purpose argument at oral argument. Id. at 0:0013:20, 28:35-30:48. Rather, NAGR argued that
Montana’s registration and record-keeping
requirements were not substantially related to the
government’s interests in providing information to the
public, increasing transparency, or preventing
circumvention. Id.

6

Video of the oral argument is available on the Ninth Circuit’s
website: https://www.ca9.uscourts.gov/media/view_video.php?pk_
vid=0000015277.

16
The Ninth Circuit affirmed in part and reversed in
part. Pet. App. 1. First, the court followed this Court in
rejecting the notion that disclosure requirements could
apply only to express advocacy, observing that Citizens
United had declined to import the distinction between
express advocacy and issue advocacy into the disclosure
requirement context. Pet. App. 18-19. The court of
appeals also rejected NAGR’s interpretation of the
Seventh Circuit’s Barland decision, noting that
“[c]onsidered as a whole, Barland’s reading of Citizens
United is not to the contrary.” Pet. App. 19. The court
reasoned that Barland had addressed “sweeping
disclosure requirements,” and had not determined that
“appropriately tailored disclosure laws” could apply
only to express advocacy. Pet. App. 20.
The court next applied exacting scrutiny to
Montana’s laws. The court determined that requiring
a group’s treasurer to be a registered voter did not
satisfy exacting scrutiny, and it struck that provision.
Pet. App. 35. The court recognized that, although “the
State has a strong interest in assuring that it can
subpoena treasurers of political committees,” and can
only subpoena individuals within the State, the
interest could be served without requiring a treasurer
to be a registered voter. Pet. App. 38. Montana has not
cross-petitioned for certiorari on that ruling.
The court determined that the remaining disclosure
requirements were substantially related to Montana’s
important interests in disclosing to the public who is
behind political messages, deterring corruption, and
preventing circumvention of campaign finance laws.
Pet. App. 25-26 (citing Citizens United, 558 U.S. at 368;

17
McConnell v. Federal Election Comm’n, 540 U.S. 93,
196 (2003)). The court found that Montana’s disclosure
laws allow varying levels of disclosure “commensurate
with an organization’s level of political advocacy.” Pet.
App. 27. The court observed that, unlike a PAC, which
has significant reporting obligations, an incidental
committee like NAGR need only report expenditures,
unless their contributions were earmarked or solicited
for spending on a specific candidate or ballot issue. Pet.
App. 27-28.
Additionally, the court determined that Montana’s
reporting requirements are “carefully tailored to
pertinent circumstances, distinguishing them from onesize-fits-all disclosure regimes that other circuits have
invalidated.” Pet. App. 30. The court observed that
committees making only a single expenditure could
fulfill all necessary registration and reporting in one
filing. On the other hand, a committee wanting to
engage in activity throughout the election cycle could
do so by making reports at specific intervals. Pet. App.
29-30.
Finally, the court determined that the requirements
associated with registration, namely that a committee
provide basic identifying information, appoint a
treasurer, use a bank authorized to do business in
Montana for contributions and expenditures, and keep
up-to-date records, were not onerous. Pet. App. 31-32.
This information was necessary to prevent
circumvention and allow the State to enforce
substantive campaign finance laws. Id. Thus, with the
exception of the voter-registration requirement for
treasurers, the court held that “Montana’s scheme is

18
sufficiently tailored to Montana’s interest in informing
its electorate of who competes for the electorate’s
attention and preventing the circumvention of
Montana’s election laws.” Pet. App. 41.
REASONS FOR DENYING THE PETITION
I.

This Case Is A Poor Vehicle for Addressing
the Issues Raised in the Petition.

NAGR focuses much of its petition arguing that the
Ninth Circuit abandoned Buckley’s major-purpose test
and created a three-way circuit split for this Court to
resolve. Contrary to Amicus’s assertion that this case
provides a “clean vehicle” for addressing the majorpurpose test, Br. of Amicus Curiae Institute for Free
Speech 15, this case is an exceptionally poor vehicle
because NAGR did not seek the test’s application below
and conceded that Montana’s disclosure requirements
complied with “settled law.”
NAGR’s district court briefing included no
argument that Montana’s electioneering
communication statute was unconstitutional because it
was not limited to groups with the major purpose of
nominating or electing candidates. Rather, NAGR
claimed that “disclosure requirements are only
appropriate for groups that engage in express
advocacy.” Pet. App. 53. NAGR’s argument was that
states could not impose any regulations on issue
advocacy. ER 37-40. In its briefing and oral argument
before the Ninth Circuit, NAGR was again silent as to
the major-purpose test. Instead, it argued that
Montana’s regulations did not meet exacting scrutiny.
NAGR’s Opening Br. 13-14, ECF No. 22 18-35010.

19
At oral argument, NAGR further narrowed its
statutory challenge, maintaining that its challenge was
only to the overbreadth of the term “electioneering
communications” and not to the accompanying
disclosure requirements. Petitioner conceded that the
disclosure requirements complied with “settled law”
under Citizens United and cases going back to Buckley.
Oral Argument at 2:10. Petitioner further conceded
that Montana could “require disclosure” on issue
advocacy but argued a State cannot require “full blown
PAC-like reporting obligations” on an issue-advocacy
group. Id. at 2:30-2:50.
Having failed to ask the Ninth Circuit to apply the
major-purpose test, or to even address the issue, NAGR
cannot now fault the Ninth Circuit’s analysis. The
court did not address NAGR’s recently constructed
major-purpose argument because NAGR failed to raise
the issue, at all, below. As a “court of review, not of
first view,” this Court should deny certiorari to review
an argument made for the first time in NAGR’s
Petition. Jennings v. Rodriguez, 138 S. Ct. 830, 851
(2018).
Nor can NAGR now challenge Montana’s disclosure
requirements after explicitly conceding that disclosure
for issue advocacy was proper under “settled law.” A
party’s concessions guide how courts decide cases, and
parties must therefore be bound by them. See, e.g.,
Christian Legal Soc’y Chapter of the Univ. of Cal. v.
Martinez, 561 U.S. 661, 676-78 (2010) (stating parties
are bound by factual stipulations that lower courts
relied on). It is improper for NAGR to concede that the
State may require disclosure below, but then ask this

20
Court to review that very issue. While NAGR may
attempt to distinguish disclosure from registration
requirements such as listing a treasurer or contact
person, those requirements are disclosure
requirements. Moreover, they are analogous to the
required disclosures for federal electioneering
communications. See FEC Form 9 (requiring, among
other things, contact information for the “custodian of
records”). NAGR is bound by its concessions, and its
concessions make this a poor case to address the issues
raised in the petition.
The major-purpose theory, though, is not the only
argument that NAGR attempts to raise for the first
time in its Petition. NAGR also attempts to broaden its
claims by now arguing that Montana’s disclosure
provisions would apply to small community groups,
nature clubs, and the like, and could encompass
pamphlets and books. As discussed below, NAGR’s
interpretive attempts to broaden the reach of
Montana’s statute are misguided. But perhaps more
importantly, NAGR did not make these arguments
below. Rather, throughout this litigation, NAGR has
tied its claims to its plans to send political mailers that
contain public officials’ positions and voting records on
the Second Amendment. See Pet. App. 50-53. Neither
the district court nor the Ninth Circuit had an
opportunity to consider these new claims, and this
Court, as a court of “review” only, should decline to
take them up at this late stage. Jennings, 138 S. Ct. at
851.

21
II.

There Is No Circuit Split Because Lower
Courts Agree on the Standard of Review
for Disclosure Laws like Montana’s and No
Circuit Has Adopted NAGR’s Proposed
Bright-Line Major-Purpose Rule.

NAGR asserts that a three-way split exists among
the circuit courts regarding the proper analysis for
disclosure and reporting laws. NAGR is incorrect. First,
the courts of appeal are unanimous that the correct
constitutional standard to apply to disclosure laws is
exacting scrutiny. Second, that courts have upheld
some disclosure laws and invalidated others does not
illustrate a circuit split, but rather that courts applying
exacting scrutiny have determined that some
disclosure laws were not substantially related to
legitimate government interests, while others were.
1. Before Citizens United, there was some
confusion about the proper standard of scrutiny to
apply to disclosure requirements. See Brumsickle, 624
F.3d at 1005 (noting the “somewhat unclear” level of
scrutiny). Citizens United, however, clarified that the
constitutional standard for disclaimer and disclosure
requirements was exacting scrutiny. 558 U.S. at 366.
As the Ninth Circuit recognized, “[r]ecent Supreme
Court decisions have eliminated the apparent confusion
as to the standard of review applicable in disclosure
cases. The Court has clarified that a campaign finance
disclosure requirement is constitutional if it survives
exacting scrutiny, meaning that it is substantially
related to a sufficiently important governmental
interest.” Brumsickle, 624 F.3d at 1005 (citing Doe v.

22
Reed, 561 U.S. 186, 196 (2010); Citizens United, 558
U.S. at 366; McConnell, 540 U.S. at 201).
Following this Court’s clarification of the standard,
the courts of appeal have uniformly reviewed disclosure
laws under the exacting scrutiny standard. E.g., Worley
v. Cruz-Bustillo, 717 F.3d 1238, 1244 (11th Cir. 2013)
(noting that “every one of our sister Circuits who have
considered the question . . . have applied exacting
scrutiny to disclosure schemes”); Justice v. Hosemann,
771 F.3d 285, 296 (5th Cir. 2014) (applying exacting
scrutiny and recognizing that “[o]ther circuits have
uniformly adopted the same standard”); see also
Vermont Right to Life Comm., Inc. v. Sorrell, 758 F.3d
118, 136-37 (2d Cir. 2014); Barland, 751 F.3d at 840-42
(7th Cir. 2014); Minnesota Citizens Concerned for Life,
Inc. v. Swanson, 692 F.3d 864, 872 (8th Cir. 2012) (en
banc)7; N.M. Youth Organized v. Herrera, 611 F.3d 669,
676 (10th Cir. 2010); Real Truth About Abortion, Inc. v.
Federal Election Comm’n, 681 F.3d 544, 549 (4th Cir.
2012); National Organization for Marriage v. McKee,
649 F.3d 34, 55 (1st Cir. 2011); SpeechNow.org v.
Federal Election Comm’n, 599 F.3d 686, 696 (D.C. Cir.
2010) (en banc).

7

The Eighth Circuit has questioned whether exacting scrutiny
should apply to laws that apply “the full panoply of regulations
that accompany status as a PAC” but has nonetheless consistently
applied exacting scrutiny to disclosure laws. Swanson, 692 F.3d at
875 (citation omitted). Moreover, the Eighth Circuit explicitly
rejected arguments like NAGR’s that “any disclosure requirement
other than ‘one-time, event driven reporting’ is likely a PAC-style
burden, invalid as applied to groups lacking Buckley’s major
purpose.” Iowa Right to Life Comm., Inc. v. Tooker, 717 F.3d 576,
592 (8th Cir. 2013).

23
2. NAGR argues that the Fourth, Seventh, and
Tenth Circuits have held that Buckley’s major-purpose
test is required to impose “political committee
regulations.” Pet. 13. The argument is irrelevant, and
incorrect, for two reasons. First, both the cited Seventh
and Tenth Circuit decisions applied exacting scrutiny
to the disclosure laws at issue, so they do not conflict
with the decision below, which also applied exacting
scrutiny. The Fourth Circuit also applies exacting
scrutiny to disclosure requirements. Real Truth, 681
F.3d at 549 (“[A]fter Citizens United, it remains the law
that provisions imposing disclosure obligations are
reviewed under the intermediate scrutiny level of
exacting scrutiny.”) (citation omitted).8 While a group’s
major purpose may have been a factor for some courts,
it was not dispositive. See, e.g., Barland, 751 F.3d at
839-41. Rather, the ultimate inquiry in those cases, as
it was for the Ninth Circuit below, is whether the
regulation was substantially related to a sufficiently
important interest. See Pet. App. 16-17.
Second, even those courts that viewed a group’s
major purpose as relevant did so only when a state
applied full-fledged PAC status and burdens to groups
whose major purpose was not political advocacy. The
Seventh Circuit’s decision in Barland, the primary case
8

Although NAGR leans heavily on the Fourth Circuit’s decision in
North Carolina Right to Life, Inc. v. Leake, 525 F.3d 274 (4th Cir.
2008), Leake predates this Court’s clarification that exacting
scrutiny applies to disclosure laws. Moreover, in Real Truth, the
Fourth Circuit recognized that the law at issue in Leake was
distinguishable from a disclosure law because it “imposed a variety
of restrictions on campaign speech, including limits on acceptable
contributions and expenditures.” 681 F.3d at 553.

24
that NAGR relies on, provides a good example. There,
while determining that a group’s major purpose is
relevant when subjected to “full-blown PAC duties,” the
court nonetheless recognized that disclosure could
constitutionally apply to groups whose major purpose
was not electing candidates. Barland, 751 F.3d at 83941. The court observed that it is “clear that outside
groups—even those whose major purpose is not express
advocacy—are not completely immune from disclosure
and disclaimer rules for their occasional spending on
express election advocacy.” Id. at 839. The Seventh
Circuit acknowledged that “[a] simpler, less
burdensome disclosure rule for occasional expressadvocacy spending by ‘nonmajor-purpose groups’ would
be constitutionally permissible.” Id. at 841. This follows
from Buckley itself. Id. at 839 (“The major-purpose
limitation announced in Buckley . . . becomes more
significant as the scope and burdens of the regulatory
system increase.”).
Contrary to NAGR’s representation, the Seventh
Circuit does not view the major-purpose test as a
“constitutional imperative.” Pet. 2. Indeed, the Seventh
Circuit has expressly declined to apply the majorpurpose test to all disclosure systems that apply to
political committees, and it has expressly rejected the
notion that the limitation is anything more than a
product of statutory interpretation. Center for
Individual Freedom v. Madigan, 697 F.3d 464, 487 (7th
Cir. 2012) (reasoning that the major-purpose limitation
is “a creature of statutory interpretation, not
constitutional command”); Barland, 751 F.3d at 839.
The reason the “major-purpose limitation” was
applicable in Barland was because the court faced a

25
law that was comparable to the one this Court
considered in Buckley: the law “suffers from the same
kind of overbreadth as the federal statute at the time
of Buckley, so the major-purpose limitation has the
same significance here as it did there.” Barland, 751
F.3d at 839. Barland does not stand for the proposition
that groups can only be subject to disclosure
requirements if their major purpose is express
advocacy.
NAGR is also incorrect that Madigan and Barland
represent an intra-circuit conflict. Pet. 2 n.1. Certainly,
the Seventh Circuit does not view its cases as
conflicting as Barland’s discussion of Madigan
demonstrates. Rather, the cases illustrate the State’s
point that the court found a group’s major purpose to
be relevant only when the government subjects groups
to the same extensive burdens that apply to full-blown
PACs. In Madigan, the court held that the majorpurpose limitation did not apply because the
requirements there were not burdensome like the
requirements analyzed in Buckley. 697 F.3d at 488. The
court noted, though, that the major-purpose limitation
could be relevant if the requirements were more robust.
Id. Barland reiterated this understanding. 751 F.3d at
839 (recognizing that its decision was consistent with
Madigan’s observation that the major-purpose
limitation may become relevant “as the scope and
burdens of the regulatory system increase”).
Moreover, the major-purpose test was only one
factor in the analysis, not a dispositive question as
NAGR suggests. Both cases were ultimately resolved
on whether the state could meet exacting scrutiny.

26
Barland, 751 F.3d at 840-42; Madigan, 697 F.3d at
477. These cases are not in conflict with each other.
Nor are they in conflict with the Ninth Circuit’s
decision below. Notably, the court below specifically
discussed Barland and found no conflict between the
Ninth Circuit and the Seventh Circuit. Pet. App. 19-20.
The other cases NAGR cites as imposing a majorpurpose test likewise found it a factor only when the
challenged provision applied full PAC status and
obligations to groups. See Herrera, 611 F.3d at 675, 677
(major purpose relevant when state imposed “full range
of disclosure and report provisions” on non-majorpurpose groups, requiring them to report every
expenditure and contribution the groups make,
“without regard to whether the expenditure was for an
election-related expense”); Leake, 525 F.3d at 286
(applying major-purpose test where all groups were
subject to PAC-like requirements).
In an effort to avoid the distinctions courts have
drawn between reporting obligations that amount to
“full-blown PAC duties” and lesser disclosure
obligations, NAGR repeatedly asserts that states
cannot impose “political-committee regulations” on
certain groups. See e.g. Pet. 13, 16, 20. NAGR never
explains what it means by this vague and loaded
phrase, but the implication is clear: it would have this
Court believe that Montana’s disclosure requirements
for electioneering communications are identical to fullfledged burdens imposed on groups whose only purpose
is to elect or defeat candidates. That is assuredly not
the case.

27
Montana’s
disclosure
requirements
for
electioneering communications by incidental
committees are significantly less burdensome than
those imposed on independent political committees,
Montana’s corollary to a federal PAC. As noted above,
incidental committees are subject to fewer reporting
requirements than PACs, and federal courts have
repeatedly found that Montana’s disclosure
requirements on incidental committees are minimal
and appropriately tailored. Pet. App. 32, 55-57;
Montanans for Community Development, 735 F. App’x
280; Canyon Ferry, 556 F.3d 1021; NAGR I, 969
F. Supp. 2d 1262; National Ass’n for Gun Rights, Inc.
v. Motl, 188 F. Supp. 3d 1021.
Moreover, electioneering communications do not
even trigger disclosure obligations unless they are
made in the 60 days before voting begins in an election.
Mont. Code Ann. § 13-1-101(16). Even then, a
communication must cost more than $250, mention a
clearly identified candidate, and be publicly distributed
in the district where the candidate is running for office
to be reportable. Id.; Pet. App. 11. For most of an
election year and in off-election years, a group like
NAGR need not register or report electioneering
communications at all. But during the leadup to an
election, the Montana public has a right to know who
or what is behind the political messages competing for
voters’ attention. Pet. App. 41.
3. The decision below also does not conflict with the
First and Second Circuits. NAGR asserts that, while
these circuits do not follow the major-purpose test, they
require groups to engage in at least some express

28
advocacy before allowing a state to impose disclosure
obligations. Pet. 16. But neither of the cited decisions
support NAGR’s view. To the contrary, the First Circuit
followed this Court’s lead in recognizing that “the
distinction between issue discussion and express
advocacy has no place in First Amendment review of
these sorts of disclosure-oriented laws.” McKee, 649
F.3d at 55. Like the Ninth Circuit below, the First
Circuit resolved the case by applying exacting scrutiny
to the challenged disclosure laws. Id. at 55-56.
The Second Circuit also did not hold that some
express advocacy was required before a state could
impose disclosure obligations. Rather, the court
reasoned that Citizens United removed all uncertainty
that disclosure laws could extend beyond express
advocacy. Sorrell, 758 F.3d at 132. And, like the First
Circuit and other circuits, the Second Circuit applied
exacting scrutiny to the challenged disclosure laws.
The decisions of the First and Second Circuits do not
conflict with the Ninth Circuit’s decision below nor do
they create a conflict among the other courts of appeal.
The state court decision in Utter v. Building
Industry Ass’n of Washington, 341 P.3d 953 (Wash.
2015), also poses no conflict. The reporting law
challenged in Utter defined political committee without
reference to any purpose test at all, and it contained no
limit regarding the purpose of a committee. Utter, 341
P.3d at 967. As discussed above, that is not the case in
Montana, which distinguishes between independent
committees that have express advocacy as their
primary purpose, and incidental committees, which do
not have express advocacy as their primary purpose

29
and which have correspondingly lesser reporting
obligations. Moreover, though the Washington court
did not reach the question of whether political
committee registration requirements would be
constitutional, the court recognized that exacting
scrutiny was the applicable constitutional standard to
apply. Id. at 968.
In sum, NAGR’s claim that the Ninth Circuit
decision below conflicts with every other circuit and
that the court has “slipped Buckley’s leash” rests on the
false premise that the courts of appeal apply different
standards when reviewing disclosure laws. Pet. 18. But
the courts all apply exacting scrutiny. To be sure, some
laws have been upheld and others struck down, but
that is a function of courts applying the exacting
scrutiny standard, not because some courts apply a
talismanic major-purpose test to all disclosure
requirements.
4. No federal circuit has adopted NAGR’s view that
the major-purpose test is a bright-line rule prohibiting
committee regulation and disclosure unless a group’s
major purpose is to elect or defeat a candidate. Indeed,
circuit courts have recognized that defining a group’s
major purpose raises a host of line-drawing problems
and would lead to perverse results in the disclosure
context. See Brumsickle, 624 F.3d at 1011; McKee, 649
F.3d at 59. For example, if a group’s major purpose
were determined in relation to whether expenditures
on political speech constitute a majority of its annual
spending, then small groups with small budgets could
be required to register and disclose even though they
spent only a small amount on political advocacy, while

30
large corporations could spend millions of dollars on
similar advocacy without being required to register and
disclose so long as their expenditures were less than a
majority of the group’s overall spending.
A simple example highlights the problems with this
approach. Consider, for example, two otherwise
identical groups that spend $20,000 to inform voters of
a candidate’s record, with the only difference being the
size of the groups’ budgets; for the first group, the
$20,000 represents 100 percent of its budget, and for
the second group, the $20,000 represents 10 percent.
Under a major-purpose theory, the State could
constitutionally require disclosure from the first group
but not the second, even though the voting public
would be subjected to the same $20,000 message. This
theory defies common sense in addition to lacking any
constitutional support.
NAGR’s major-purpose theory would undercut the
government’s informational interest and is divorced
from the principles furthered by the exacting scrutiny
standard. Among other things, disclosure advances the
important and well-recognized interest of providing
voters with information so that they can make
informed decisions about their elected officials. See
Citizens United, 558 U.S. at 365. The public’s interest
in knowing who is behind a message does not diminish
based on some unknown group’s decision to allocate a
lesser percentage of its budget to election-related
spending. NAGR’s view would allow well-heeled
entities to avoid disclosure simply because they have
more money in the bank. The unworkability of this
proposal is highlighted by the fact that no federal

31
circuit has adopted it as a bright-line requirement. In
sum, NAGR identifies no circuit that conflicts with the
Ninth Circuit’s decision in this case that warrants this
Court’s review.
III.

The Ninth Circuit
Exacting Scrutiny.

Correctly

Applied

NAGR admits, as it must, that the Ninth Circuit
applied the correct test, exacting scrutiny, when
analyzing Montana’s electioneering communication
disclosure provision. Pet. 20-21. Indeed, the Ninth
Circuit determined that the registered-voter
requirement did not meet exacting scrutiny and struck
that requirement. Pet. App. 35. The merits question
here is thus one of degree, not kind. NAGR merely
quibbles with the result the Ninth Circuit reached. But
NAGR’s request that this Court analyze the court’s
application of the correct test demonstrates that this is
not an exceptionally important question, or even an
important question. Rather, it highlights that this
Court should deny certiorari review. Sup. Ct. R. 10
(Petitions are rarely granted when the asserted errors
consist of “erroneous factual findings or the
misapplication of a properly stated rule of law.”).
A. Montana’s Disclosure Provision Meets
Exacting Scrutiny.
Exacting scrutiny requires a “substantial relation
between the disclosure requirement and a sufficiently
important governmental interest.” Citizens United, 558
U.S. at 366-67 (citation and internal quotation marks
omitted). NAGR first claims that Montana “failed to

32
present evidence or offer explanations for its
regulations.” Pet. 21. This is false.
Montana’s brief to the Ninth Circuit offered a
detailed explanation of its important interests in
regulating electioneering communications, including
providing the electorate with information, gathering
data necessary to enforce more substantive
electioneering restrictions, and increasing
transparency and decreasing circumvention. Answer
Br. 19-20, ECF No. 33 18-35010. And Montana relied in
part on a prior Ninth Circuit panel’s discussion, in a
different case, of these disclosure interests. Id.
NAGR suggests that Montana should have also
presented specific factual evidence demonstrating the
need for disclosure. Pet. 21. But NAGR did not raise
this issue in the district court below, as Montana noted
on appeal, Answer Br. 24, and the Ninth Circuit did not
address it in its decision. Indeed, in the district court,
NAGR asserted that “no genuine issue as to any
material fact” existed. SER 24. In any case, “Montana’s
disclosure regime furthers identical interests” to those
determined important by this Court. Pet. App. 26
(citing Citizens United, 558 U.S. at 369; McConnell, 540
U.S. at 196). NAGR points to no case requiring
Montana to reinvent the wheel. Moreover, states are
entitled to rely on “evidence and findings” that other
courts have accepted. Nixon v. Shrink Missouri
Government PAC, 528 U.S. 377, 393 & n.6 (2000) (“The
First Amendment does not require a city, before
enacting . . . an ordinance, to conduct new studies or
produce evidence independent of that already generated
by other cities, so long as whatever evidence the city

33
relies upon is reasonably believed to be relevant to the
problem that the city addresses’”) (quoting Renton v.
Playtime Theatres, Inc., 475 U.S. 41, 51-52 (1986)).
NAGR also suggests that the law sweeps too
broadly compared to the Bipartisan Campaign Reform
Act of 2002 (BCRA). Pet. 21. But this is comparing
apples to oranges; Montana’s political market is tiny
compared to the market for federal elections. The
Ninth Circuit specifically analyzed Montana’s $250
single-expenditure threshold, and determined that this
limit ensures “that disclosure requirements do not
burden minimal political activity.” Pet. App. 31. And
Montana’s regulation reasonably includes internet
communication and print mailers, media used to
address Montana voters.9 NAGR, for example, sent,
and seeks to send during future elections, print mailers
discussing candidates’ voting records on gun issues.
Pet. 4 n.2.
As described above, NAGR conflates the burdens
imposed on “independent” and “incidental” committees
under Montana law. Montana does not impose “fullblown PAC duties” on groups engaged in issue
advocacy or treat them “the same” as groups engaged
in express advocacy. Pet. 22 (quoting Barland, 751 F.3d
at 841). On the contrary, Montana’s “two-tiered
reporting structure” assigns “reporting burdens
commensurate with an organization’s level of political
advocacy.” Pet. App. 27. An organization that makes a
single expenditure can “fulfill all registration,

9

NAGR did not raise this breadth of covered communications issue
in its appeal below.

34
reporting, and closing requirements in one filing of two
forms.” Pet. App. 30. In this respect, Montana’s
regulation does provide for “simple, event-driven
disclosure.” Pet. 22. On the other hand, if an
organization chooses to make multiple expenditures
close to an election, it can disclose on a scheduled basis
as opposed to every time it makes a communication, as
BCRA requires.
The Ninth Circuit also determined Montana’s
disclosure provision is “carefully tailored to pertinent
circumstances” by, among other things, being limited
to the window “within 60 days of the initiation of voting
in an election.” Pet. App. 29-30. And the “disclosurerelated registration requirements” (with the exception
of the invalidated registered-voter requirement)
reasonably allow Montana to gather “the data
necessary to enforce more substantive electioneering
restrictions.” Pet. App. 31-32 (citation omitted). In
short, the Ninth Circuit carefully applied exacting
scrutiny and correctly determined that Montana’s
tailored disclosure requirements meet this standard.
B. Montana’s Disclosure Provision
Narrower than NAGR Represents.

Is

Grasping at straws, NAGR makes yet another
argument that it did not raise below: that Montana’s
disclosure provision applies to pamphlets or books that
mention candidates or political parties even if the topic
is unrelated to the candidate or election (such as a
political reporter’s retrospective). Pet. 3, 23-24. This
argument is off base for two reasons. First, the
provision is tied to elections and voting on the
“candidate or ballot issue,” and it only applies to

35
references to clearly identified candidates “in that
election,” or to political parties subject to an issue on
the ballot “in that election” (not political parties in
general). Mont. Code Ann. § 13-1-101(16)(a). Second, as
discussed above, a communication referencing a
candidate or political party is not an electioneering
communication if it “is susceptible to no reasonable
interpretation other than as unrelated to the candidacy
or the election.” Mont. Admin. R. 44.11.605(3)(a) and
(b). Mr. Dennison’s book, as described, is unrelated to
any particular candidate or election, and its
distribution would not require disclosure.
Montana’s disclosure provision is appropriately
tailored and substantially related to important
informational and regulatory interests, consistent with
this Court’s precedent. This Court should reject
NAGR’s attempts to inflate the provision’s breadth and
decline to entertain NAGR’s new arguments.
CONCLUSION
This Court should deny the petition.

36
Respectfully submitted,
TIMOTHY C. FOX
Montana Attorney General
MATTHEW T. COCHENOUR
Acting Solicitor General
Counsel of Record
J. STUART SEGREST
Chief, Civil Bureau
HANNAH E. TOKERUD
Assistant Attorney General
MONTANA DEPARTMENT OF JUSTICE
215 N. Sanders St.
Helena, MT 59601
(406) 444-2026
mcochenour2@mt.gov
Counsel for Respondents

